U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Johnson v. Arteaga-Martinez, No. 19-896
Dear Mr. Harris:
The Court granted the petition for a writ of certiorari in this case on August 23, 2021.
Petitioners’ opening brief on the merits is currently due on October 7, 2021.
In order to accommodate scheduling difficulties and the press of other cases, petitioners
respectfully request, under Rule 30.4 of the Rules of this Court, an extension to and including
October 14, 2021, within which to file the opening brief and joint appendix. Counsel for
respondent consents to that request and, for similar reasons, seeks an extension of time for the
filing of respondent’s brief to and including November 22, 2021. Petitioners consent to that
request.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

19-0896
JOHNSON, TAE D. ACTING DIRECTOR OF US ICE,
ET AL.
ANTONIO ARTEAGA-MARTINEZ

MARCIA B. BEVAN
LAW OFFICE OF MARCIA BINDER INBRAHIM
222 SOUTH BROAD STREET
LANSDALE, PA 19446
MBI@GOOD-LAWYER.COM
PRATIK A. SHAH
AKIN, GUMP, STRAUSS, HAUER & FELD LLP
2001 K STREET, NW
1333 NEW HAMPSHIRE AVENUE, NW
WASHINGTON, DC 20006
202-887-4000
PSHAH@AKINGUMP.COM

